Department of Homeland Security
   Ofﬁce of Inspector General

        DHS' Efforts to Improve the Homeland 

           Security Information Network 





OIG-09-07                                October 2008
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                     October 29, 2008


                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the Homeland Security
Information Network. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. It is
our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation
of this report.



                                     Richard L. Skinner 

                                     Inspector General 

Table of Contents/Abbreviations 


Executive Summary ..........................................................................................................1 


Background .......................................................................................................................2


Results of Audit ................................................................................................................4


     Increased HSIN Use Reported But Limited Nationwide Sharing ..............................4 


     Improved Training Delivery Methods ........................................................................5 


     Stakeholder Involvement and Communications Challenges ......................................5 


     Information Sharing Process Not Defined..................................................................7 


     Stakeholder Dissatisfaction.........................................................................................8 


     Performance Measures Not Developed ......................................................................8


Recommendations.............................................................................................................9 


Management Comments and OIG Analysis ...................................................................11 




Appendices
   Appendix A:          Purpose, Scope, and Methodology.......................................................13 

   Appendix B:          Management Comments to the Draft Report .......................................15 

   Appendix C:          Major Contributors to this Report ........................................................20 

   Appendix D:          Report Distribution...............................................................................21 



Abbreviations
     COI                               Community of Interest
     DHS                               Department of Homeland Security
     HMCC                              HSIN Mission Coordination Committee
     HSIN                              Homeland Security Information Network
     HSIN-AC                           HSIN Advisory Council
     HSIN Next Gen                     HSIN Next Generation
     HS SLIC                           Homeland Security State and Local Intelligence Community
     I&A                               Office of Intelligence and Analysis
     IT                                Information Technology
     OIG                               Office of Inspector General


                        DHS’ Efforts to Improve the Homeland Security Information Network
Table of Contents/Abbreviations 


  OMB              Office of Management and Budget
  OPS              Office of Operations Coordination
  SLC              System Life Cycle




         DHS’ Efforts to Improve the Homeland Security Information Network
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  We evaluated the Homeland Security Information Network’s
                  (HSIN) support of information sharing as a followup to our June
                  2006 audit report, Homeland Security Information Network Could
                  Support Information Sharing More Effectively. The audit
                  objectives were to determine: 1) progress toward addressing our
                  recommendations from the June 2006 HSIN report; 2) the status of
                  information sharing among select HSIN stakeholders; and 3)
                  challenges and barriers to HSIN’s use and implementation.

                  The Department of Homeland Security (DHS) made some progress
                  in addressing our recommendations, and is taking steps to upgrade
                  the current version of HSIN. To be successful, however, DHS’
                  planned future upgrades of HSIN need to address a number of
                  concerns identified in the previous audit.

                  Specifically, DHS needs to identify HSIN’s users and determine
                  their information sharing requirements. Lacking a good
                  understanding of the HSIN user community, DHS has been unable
                  to define the information sharing process or provide adequate user
                  support. In addition, although HSIN stakeholders report increased
                  use of the tool within states, nationwide information sharing
                  remains limited. Finally, DHS has not developed performance
                  measures to enable it to track or assess information sharing using
                  HSIN.

                  We are recommending that DHS:
                    �	 Provide sufficient resources to improve stakeholder
                         relations, ensure adequate stakeholder involvement and
                         communication, and meet the needs of its customers at the
                         federal, state and local, tribal, and private industry levels;
                    �	 Develop scenario-based training for stakeholders and
                         communicate the availability of existing training;
                    �	 Ensure that system performance and information sharing
                         metrics are included in any and all future HSIN
                         developments; and
                    �	 Define and communicate DHS’ information sharing
                         process to ensure that users understand what information to
                         share and what DHS does with the information.



            DHS’ Efforts to Improve the Homeland Security Information Network 

                                          Page 1 

Background
               A critical aspect of the DHS mission is information sharing. This
               responsibility requires a robust information-sharing environment.
               HSIN is the department’s sensitive but unclassified level, internet-
               based, information sharing tool designed to support this facet of
               DHS’ mission. DHS obtained the system in 2003 to establish a
               secure communications and information technology (IT)
               infrastructure. HSIN enables the department and its intelligence,
               law enforcement, and emergency management partners to collect,
               analyze, and disseminate information in order to detect and deter
               threats to the security of the homeland.

               In February 2008, the department reported to the Congress that
               DHS has spent approximately $69 million on HSIN over the past 5
               years. Additionally, the department reported to the Office of
               Management and Budget (OMB) an estimated annual cost of $21
               million for the HSIN program for budget year 2008.

               The DHS Office of Operations Coordination and Planning (OPS)
               manages the HSIN program. OPS is responsible for monitoring
               the security of the United States on a daily basis and coordinating
               activities within the department and with governors, homeland
               security advisors, law enforcement partners, and critical
               infrastructure operators in all 50 states and more than 50 major
               urban areas nationwide. In order to achieve these goals, OPS
               developed and maintains HSIN as the primary means for
               communication, collaboration, situational awareness, and
               information sharing.

               In February 2008, DHS announced that it planned to upgrade the
               current version of HSIN to meet the needs of its growing user base
               in state and local governments and private sector communities.
               The upgrade, referred to as the Next Generation of HSIN (HSIN
               Next Gen), will be phased-in after the May 2008 contract award
               for HSIN Next Gen. The effort will involve upgrading current
               HSIN system capabilities to support DHS’ objective to
               significantly increase information interoperability and security
               with security partners and their systems.




         DHS’ Efforts to Improve the Homeland Security Information Network 

                                       Page 2 

                         HSIN Next Gen will follow best practices for system
                         implementation and integration, including the use of a System Life
                         Cycle (SLC) framework for system acquisition and development
                         efforts. DHS’ SLC, though still in draft, identifies specific steps to
                         take prior to beginning the system development process, including
                         the gathering of data requirements, development of a concept of
                         operations, and definition of business processes. DHS developed
                         the SLC to ensure that IT resources are managed effectively, and
                         that solutions meet user requirements and support DHS’ strategic
                         goals and objectives. Following the SLC framework during the
                         creation of HSIN Next Gen should help ensure that stakeholders
                         are involved in the process and, therefore, will better understand
                         how they can use HSIN to support nationwide information sharing.

                         Further, the HSIN Next Gen requirements document for the
                         planned upgrade recognizes the importance of being able to
                         monitor and evaluate system effectiveness. The system will be
                         able to produce performance reports relating to:

                             �	 System use, showing how end users interact with the
                                system;
                             �	 System health or availability, showing the operational state
                                of the system; and
                             �	 System content, to track trends in information sharing using
                                HSIN.

                         Building these metrics into HSIN Next Gen will provide a basis for
                         program management to monitor and evaluate the tool’s
                         information sharing effectiveness.

                         In June 2006, we reported that DHS did not define HSIN’s
                         relationship to existing systems, obtain and address user
                         requirements, provide adequate user guidance, or develop
                         performance measures for HSIN.1 These system planning and
                         implementation issues limited HSIN’s ability to effectively support
                         state and local information sharing.

                         To improve the effectiveness of HSIN in support of the
                         department’s information sharing environment, we recommended
                         that DHS:2


1
  DHS OIG, Homeland Security Information Network Could Support Information Sharing More Effectively,

OIG-06-38, June 2006. 

2
  Recommendations 1, 3, 4, and 5 were assigned to DHS’ Office of Operations Coordination.

Recommendation 2 was assigned to DHS’ Office of Intelligence and Analysis. 


                  DHS’ Efforts to Improve the Homeland Security Information Network 

                                                Page 3 

                               �	 Clarify and communicate HSIN’s mission and vision to
                                  users, its relation to other systems, and its integration with
                                  related federal systems.
                               �	 Define the intelligence data flow model for HSIN and
                                  provide clear guidance to system users on what information
                                  is needed, what DHS does with the information, and what
                                  information DHS will provide.
                               �	 Provide detailed, stakeholder-specific standard operating
                                  procedures, user manuals, and training based on the
                                  business processes needed to support homeland security
                                  information sharing.
                               �	 Ensure crosscutting representation and participation among
                                  the various stakeholder communities to determine business
                                  and system requirements, and encourage community of
                                  interest advisory board and working group participation.
                               �	 Identify baseline and performance metrics for HSIN, and
                                  begin to measure effectiveness of information sharing using
                                  the performance data compiled.

                           DHS made progress in addressing the issues identified in our June
                           2006 report. Specifically, increased use of HSIN within the states
                           is reported and training delivery methods have improved; however,
                           challenges remain. Because the department has decided to devote
                           resources to the new HSIN Next Gen initiative, we are closing our
                           previous report recommendations. Further, in the following
                           sections, we identify a number of areas where DHS can improve
                           HSIN Next Gen’s information sharing effectiveness, and we make
                           new recommendations to address those areas.


Results of Audit

Increased HSIN Use Reported But Limited Nationwide Sharing
                           HSIN users indicated that their use of HSIN has increased, but this
                           use appears to be restricted to within their respective state
                           boundaries. Staff at six of the eight fusion centers we contacted
                           said that HSIN use has increased over the past year, and that
                           information sharing effectiveness through HSIN has also
                           increased.3 For example, a Tennessee fusion center official said



3
  A fusion center is a collaborative effort of two or more agencies that provides resources, expertise, and
information to the center with the goal of maximizing the ability to detect, prevent, and respond to criminal
and terrorist activity.

                    DHS’ Efforts to Improve the Homeland Security Information Network 

                                                  Page 4 

                  that the center uses HSIN daily, and HSIN has become crucial to
                  the center’s operations. The center successfully used HSIN to
                  share information when tornadoes struck Tennessee in February
                  2008.

                  However, only three of the eight centers use HSIN for sharing
                  information with federal partners; the remaining five use HSIN for
                  sharing information mainly within their state. Additionally, only
                  three of the eight centers reported using HSIN as their primary
                  information sharing tool. DHS could not produce user statistics to
                  verify whether HSIN use has increased, decreased, or remained the
                  same.

Improved Training Delivery Methods
                  DHS has improved its user support and guidance since our last
                  audit by developing internet-based training on how to use HSIN,
                  and job aids that provide quick reference tips on how to navigate
                  through the HSIN portals. DHS also has provided on-site, system-
                  specific training; but stakeholders receive training only if they
                  request it. However, many users are unaware that training is
                  available. For example, officials at five of the eight fusion centers
                  we contacted did not know that HSIN training was available.

                  During one site visit, we observed “train-the-trainer” training. The
                  HSIN Outreach Team delivers the training, upon request, to fusion
                  center employees who then train local law enforcement employees
                  about HSIN. The trainers discussed why stakeholders should use
                  HSIN, and they demonstrated the functionality of HSIN. The
                  trainers also provided examples of how HSIN was used to track
                  activities and provide situational awareness during catastrophic
                  events.

                  However, the training did not include teaching stakeholders what
                  type of information should be entered into HSIN, nor did it provide
                  specific scenarios illustrating when and how the stakeholders
                  should use HSIN. A former HSIN program manager said that the
                  absence of a clear HSIN mission and vision, coupled with the lack
                  of a complete concept of operations and data flow model, impeded
                  DHS’ ability to create scenario-based training to help users
                  understand how to perform their information sharing duties.

Stakeholder Involvement and Communications Challenges
                  DHS does not have a sufficient understanding of HSIN's
                  communities of interest (COI), which include law enforcement

            DHS’ Efforts to Improve the Homeland Security Information Network 

                                          Page 5 

      agencies, emergency management and first responder agencies,
      intelligence agencies, private sector infrastructure stakeholders,
      DHS components, and international partners. As of
      October 2007, there were over 700 COIs, of which only
      approximately 300 were actively used. According to HSIN
      Outreach Team members, there is no documented definition of
      HSIN COIs and, in the past, if HSIN users wanted to develop a
      COI, they simply did so.

      The Outreach Team, which is composed of stakeholder
      relationship managers and trainers, was established to improve
      communications with HSIN stakeholders. It is responsible for
      interacting with stakeholders to communicate not only system-
      specific functionality, but also information about the HSIN
      program in general. Initially, the team had up to 32 members to
      provide program support and focused its efforts primarily on
      actively recruiting potential stakeholders. As the number of COIs
      increased, the team was realigned to focus its efforts on the
      existing COIs, but its resources were reduced to four or five
      members. One team member said that the current resource
      limitations have hindered the team's communication and
      coordination with stakeholders.

      DHS has developed two additional groups, the HSIN Advisory
      Council (HSIN-AC) and the HSIN Mission Coordination
      Committee (HMCC), to increase stakeholder representation and
      participation. For stakeholders outside of DHS, the HSIN-AC is a
      key body for addressing state, local, and private sector issues.
      HSIN-AC was formed to assist in the development of nonfederal
      user requirements, and provides recommendations on the
      improvement of operational requirements. Its purpose is to
      generate recommendations for the improvement of policy, business
      processes, governance structures, and training programs to enhance
      information sharing between federal, state, local, and private sector
      communities. Although established in January 2006, HSIN-AC
      did not hold its first meeting until October 2007. According to a
      program official, this lag time occurred because of a lack of
      leadership support, lack of agreement about HSIN’s goals, and the
      lengthy process required to select members.

      The HMCC focuses on HSIN issues within DHS. The goal of
      HMCC is to identify and validate operational enhancements to
      HSIN that are critical to the successful accomplishment of the
      mission of DHS components and the federal external partners they
      represent. Although HMCC’s first meeting was held in March
      2007, the HMCC charter has not been ratified and a permanent

DHS’ Efforts to Improve the Homeland Security Information Network 

                              Page 6 

                  chair has not been appointed, resulting in ineffective leadership
                  and a lack of focus.

                  As we reported in June 2006, DHS did not sufficiently involve
                  stakeholders during the development of HSIN and, therefore, did
                  not clearly understand their needs. Despite their concurrence with
                  our previous recommendations and the existence of several bodies
                  designed to facilitate this effort, almost 2 years later DHS has yet
                  to adequately identify HSIN users or determine their information
                  sharing requirements.

Information Sharing Process Not Defined
                  DHS has not defined and communicated its homeland security
                  information sharing process to HSIN stakeholders. Without this
                  guidance, HSIN users do not know what information they should
                  share or, once provided, what DHS does with the information.
                  None of the eight fusion centers we contacted had received any
                  guidance about what information to enter into HSIN or what
                  information DHS would provide to them. Individuals responsible
                  for HSIN’s planning, development, and implementation said that
                  the lack of clearly defined business processes that serve the
                  stakeholders has been a significant problem because users are
                  unsure about how HSIN should be used. Stakeholders and
                  advisory committee members we spoke with echoed the same
                  sentiment.

                  Additionally, some users do not know or trust who has access to
                  the information in HSIN. Individuals from five of the eight fusion
                  centers we spoke with expressed concern about who can access the
                  information they enter in HSIN. For example, users at one fusion
                  center said that they are reluctant to share sensitive information
                  with states that have laws that may require the release of such
                  information in response to freedom of information requests. These
                  concerns have perpetuated the existence of barriers to information
                  sharing.

                  The DHS Office of Intelligence and Analysis (I&A) provides
                  homeland security intelligence to the department, various
                  components of DHS, and other partners within the intelligence
                  community at the federal, state, local, tribal, and the private sector
                  levels. In order to better define the process, I&A initiated a pilot
                  project to collect information on current processes, analyze the
                  processes for deficiencies, recommend improvements, and observe
                  the implementation of those improvements to enhance the
                  intelligence information exchange between I&A and the fusion

            DHS’ Efforts to Improve the Homeland Security Information Network 

                                          Page 7 

                   centers. I&A has also conducted an internal study of how it
                   disseminates intelligence information. Despite these efforts, an
                   I&A program official said that I&A has not been able to define an
                   intelligence data flow model for HSIN, nor has DHS’ information
                   sharing process been defined and disseminated to users.

Stakeholder Dissatisfaction
                   Because HSIN does not address all of their needs, some
                   stakeholders are developing alternative systems. For example,
                   I&A, which is a primary HSIN stakeholder, has developed a
                   separate, secure portal, the Homeland Security State and Local
                   Intelligence Community (HS SLIC), for the state and local
                   intelligence community. I&A officials said that HS SLIC grew
                   from the intelligence community’s lack of confidence in HSIN’s
                   ability to provide a secure, trusted environment in which they
                   could share sensitive information. Although these stakeholders
                   provided their requirements for additional security to the HSIN
                   program office, the HSIN platform was unable to meet their needs.
                   Intelligence analysts said that their business needs were solicited
                   before the HS SLIC portal was deployed, and they have received
                   communications on a daily basis from the I&A staff supporting the
                   portal. They also expressed their confidence that the information
                   they entered in HS SLIC was protected and used by DHS.

                   Other stakeholders are looking for alternatives to HSIN as well.
                   Although the Florida fusion center uses HSIN as its primary
                   method of sharing documents within the state, two of the seven
                   regions in Florida are considering moving away from HSIN.
                   These regions are looking for a system that will allow them to
                   maintain more local control over their information and newer
                   technology that may provide them with alerting capabilities and
                   Internet messaging to groups.

Performance Measures Not Developed
                   DHS has not developed performance goals and measures for
                   HSIN, and cannot readily obtain the data needed to track
                   performance. Specifically, the system does not provide statistics
                   for HSIN usage. During our 2006 audit, HSIN program
                   management provided us with data on HSIN usage such as:




             DHS’ Efforts to Improve the Homeland Security Information Network 

                                           Page 8 

                    �	 Number of monthly HSIN logons,
                    �	 Number of HSIN account holders per month,
                    �	 Number of account holders who logged onto HSIN daily
                       per month by COI,
                    �	 Total number of HSIN users per month by COI, and
                    �	 Number of account holders who posted documents to HSIN
                       per month by COI.

               However, when we requested the same information during this
               audit, the department was not able to provide it. A DHS operations
               official said that the HSIN program office does not, at present,
               have the capability to report data readily at this level of detail.
               Although a former manager said that obtaining such data is
               possible, it must be collected through a laborious manual process.

               Further, DHS cannot track other important program performance
               information. For instance, there are no automated mechanisms to
               track information sharing statistics that would reveal how often
               posted documents are shared and with whom. HSIN program
               officials believe that this type of information, if available, would
               provide tangible evidence to support the effectiveness of HSIN’s
               role in information sharing.

               Obtaining such information is difficult because system
               performance and information sharing tracking capabilities were not
               built into HSIN. Without performance goals and measures, DHS
               cannot determine HSIN’s effectiveness as an information sharing
               tool or identify issues that should be addressed to improve system
               performance and increase information sharing through HSIN.

Recommendations
               To enable DHS to achieve its vision for HSIN Next Gen to be the
               homeland security community’s information sharing tool of
               choice, we recommend that the Director, Office of Operations
               Coordination and Planning:

                        Recommendation #1: Provide sufficient resources to
                        improve stakeholder relations, ensure adequate stakeholder
                        involvement and communication, and meet the needs of its
                        customers at the federal, state and local, tribal, and private
                        industry levels.




         DHS’ Efforts to Improve the Homeland Security Information Network 

                                       Page 9 

               Recommendation #2: Develop scenario-based training for
               stakeholders and communicate the availability of existing
               training.

               Recommendation #3: Ensure that system performance
               and information sharing metrics are included in any and all
               future HSIN developments.

      We also recommend that the Under Secretary for the Office of
      Intelligence & Analysis:

               Recommendation #4: Define and communicate DHS’
               information sharing process to ensure that users understand
               what information to share and what DHS does with the
               information.




DHS’ Efforts to Improve the Homeland Security Information Network 

                              Page 10 

Management Comments and OIG Analysis
               We obtained written comments on a draft of this report from the
               Director of Operations Coordination and Planning and the Under
               Secretary for Intelligence and Analysis. We have included a copy
               of the comments in their entirety at Appendix B.

               In the comments, the Director of Operations Coordination and
               Planning and the Under Secretary for Intelligence and Analysis
               expressed appreciation that we acknowledged progress made and
               closed the recommendations from our June 2006. They also
               acknowledged the need for improved stakeholder relations and
               procedures for defining the information sharing process.

               In response to recommendation 1, the Director of Operations
               Coordination and Planning concurred with our recommendation
               and stated that resource shortfalls will be augmented through
               “over-guidance” provisions in their fiscal year 2010 budget
               submission to the Congress. These provisions request funding
               specifically to support increasing staffing levels dedicated to
               building and strengthening stakeholder relationships with DHS’
               information sharing partners in the federal, state, local, and private
               sectors. Additionally, the Director stated that as evidence of their
               plans to improve stakeholder relations, involvement, and
               communication opportunities, their Outreach Team’s strategic plan
               would be revised to provide goals for increased awareness and
               collaboration. These goals specify improved awareness of HSIN
               mission and capabilities, by mission areas, at all levels;
               establishment of mission models; and increased internal
               collaboration within DHS components as well as collaboration
               with external information sharing partners.

               In response to recommendation 2, the Director of Operations
               Coordination and Planning stated that HSIN’s current training
               engagement model provides for the delivery of mission-based
               training. Training is delivered in five different methods; and, at
               least three of those methods allow HSIN mission advocates to
               tailor training to meet the needs of the specific stakeholder
               community for which the training is being delivered. In addition to
               training provided to individual communities of interest, the HSIN
               program manager is also developing a strategy for providing
               training that transcends mission areas and highlights HSIN as a
               transparent information sharing tool. The response also introduces
               plans for making HSIN training availability more visible to the
               stakeholder communities.


         DHS’ Efforts to Improve the Homeland Security Information Network 

                                       Page 11 

      In response to recommendation 3, the Director of Operations
      Coordination and Planning further acknowledged the need for an
      automated means of measuring HSIN system performance and
      information sharing activities, and that information sharing data, in
      particular, is not currently being measured. However, the Director
      related that the future version of HSIN, the HSIN Next-Generation
      platform, will provide for enhanced information sharing
      capabilities, and an automated means of gathering mission-critical
      data. Specifically, HSIN Next-Generation’s functional
      requirements document targets the collection of statistics such as
      data specific to the performance of HSIN, as well as what
      information is shared, how and with whom the information is
      shared, and the nature or content of information being shared.

      Finally, to address recommendation 4, the Under Secretary for
      Intelligence and Analysis reiterated their commitment to
      information sharing that is “functionally-oriented.” Therefore, the
      Under Secretary proposed the creation of shared mission
      communities which would serve to help define policies,
      workflows, and data standards for information sharing. The Under
      Secretary envisions the establishment of shared mission
      communities as a means of further defining an information sharing
      process for the department that includes and addresses the unique
      needs and concerns of each community of stakeholders; thereby
      establishing trust in the overall information sharing process.




DHS’ Efforts to Improve the Homeland Security Information Network 

                              Page 12 

Appendix A
Purpose, Scope, and Methodology




                       We began our followup audit work by reviewing the five open
                       recommendations from our June 2006 report, Homeland Security
                       Information Network Could Support Information Sharing More
                       Effectively (OIG-06-38). Additionally, we reviewed followup
                       documentation provided by the HSIN program office and the
                       program office’s 90-day responses to the first audit. Furthermore,
                       our background research included reviews of reports issued since
                       the last audit related to HSIN prepared by the OIG, Government
                       Accountability Office, other federal agencies, public interest
                       groups, and the Congress. We also reviewed records of
                       congressional testimony that occurred since the issuance of the
                       first report.

                       To obtain information on the current status of information sharing
                       and to identify challenges to HSIN’s use and implementation, we
                       obtained internal DHS correspondence that established policies
                       and procedures relative to HSIN and future information sharing
                       initiatives. We also researched the department’s internal website
                       to obtain relevant information about HSIN since the last audit.
                       Due to the high visibility of the HSIN program, we researched
                       media articles that pertained to HSIN specifically and information
                       sharing in general. We also researched legislation that established
                       the nation’s information sharing environment and imposed
                       additional business and technical requirements on the HSIN
                       program.

                       We conducted our audit fieldwork from November 2007 to March
                       2008 at HSIN Program Office headquarters in Washington, D.C.
                       We met with key department officials responsible for HSIN’s
                       planning, implementation, and program management to obtain
                       information on the progress made toward addressing previous
                       recommendations, assess the current status of information sharing
                       among select HSIN stakeholders, and identify new challenges to
                       HSIN’s use and implementation. These officials included
                       members of DHS’ Office of Operations Coordination, the Office of
                       Intelligence and Analysis, and the Office of the Chief Information
                       Officer. Additionally, we met with members of stakeholder
                       working groups and advisory boards; specifically the HSIN-AC
                       and the HMCC.

                       We also visited stakeholders at the following select fusion centers;
                       Santa Fe, New Mexico; Los Angeles, California; Richmond,
                       Virginia; Sacramento, California; and Woodlawn, Maryland; and
                       conducted telephone conferences with the Florida, Tennessee, and


                 DHS’ Efforts to Improve the Homeland Security Information Network 

                                               Page 13 

Appendix A
Purpose, Scope, and Methodology




                       Vermont Fusion Centers. We conducted this performance audit in
                       accordance with generally accepted government auditing
                       standards. Those standards require that we plan and perform the
                       audit to obtain sufficient, appropriate evidence to provide a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives.

                       The principal OIG points of contact for this audit are Frank Deffer,
                       Assistant Inspector General for Information Technology Audits,
                       and Richard Harsche, Director, Information Management. Major
                       OIG contributors to the audit are identified in Appendix C.




                 DHS’ Efforts to Improve the Homeland Security Information Network 

                                              Page 14 

Appendix B
Management Comments to the Draft Report




                DHS’ Efforts to Improve the Homeland Security Information Network 

                                             Page 15 

Appendix B
Management Comments to the Draft Report




                DHS’ Efforts to Improve the Homeland Security Information Network 

                                             Page 16 

Appendix B
Management Comments to the Draft Report




                DHS’ Efforts to Improve the Homeland Security Information Network 

                                             Page 17 

Appendix B
Management Comments to the Draft Report




                DHS’ Efforts to Improve the Homeland Security Information Network 

                                             Page 18 

Appendix B
Management Comments to the Draft Report




                DHS’ Efforts to Improve the Homeland Security Information Network 

                                             Page 19 

Appendix C
Major Contributors to the Report


                       Information Management Division

                       Richard Harsche, Director
                       Beverly H. Bush, Audit Manager
                       Steve Ressler, Auditor
                       Swati Nijhawan, Auditor
                       Melissa Keaster, Auditor
                       Kristina Hayden, Referencer




                 DHS’ Efforts to Improve the Homeland Security Information Network
                                               Page 20
Appendix D
Report Distribution



                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Director, Office of Operations Coordination and Planning
                       DHS Office of Operations Coordination Liaison
                       Program Manager, Homeland Security Information Network
                       Office of Information Sharing and Collaboration
                       Under Secretary, Office of Intelligence and Analysis
                       Under Secretary for Management
                       Chief Information Officer
                       Chief Information Security Officer
                       Executive Secretariat
                       General Counsel
                       Assistant Secretary, Office of Policy
                       Assistant Secretary, Office of Public Affairs
                       Assistant Secretary, Office of Legislative Affairs
                       Director, GAO/OIG Audit Liaison Office

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




                 DHS’ Efforts to Improve the Homeland Security Information Network 

                                              Page 21 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
